No. 19A-___

In the Supreme Court of the United States
__________
DANIEL ENRIQUE CANTÚ,
Applicant,
v.
JAMES M. MOODY, et al.,
Respondents.
__________
APPLICATION FOR AN EXTENSION OF TIME WITHIN WHICH TO
FILE A PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FIFTH CIRCUIT

__________
TO THE HONORABLE SAMUEL ALITO, ASSOCIATE JUSTICE AND CIRCUIT JUSTICE FOR THE
FIFTH CIRCUIT:
Pursuant to 28 U.S.C. § 2101(c) and Rule 13.5 of the Rules of this Court,
applicant Daniel Enrique Cantú respectfully requests a 29-day extension of time, to
and including February 14, 2020, within which to file a petition for a writ of certiorari
to review the judgment of the United States Court of Appeals for the Fifth Circuit.
The Fifth Circuit denied a timely request for rehearing on October 18, 2019. Unless
extended, the time to file a petition for a writ of certiorari will expire on January 16,
2020. The jurisdiction of this Court will be invoked under 28 U.S.C. § 1254(1).
Copies of the Fifth Circuit’s opinion (App., infra, 1a-18a) and its order denying
rehearing (App., infra, 19a) are attached.
1. This case arises from an FBI sting operation on August 10, 2011 as part of
an investigation into the Texas Mexican Mafia. An FBI informant, accompanied by a

2
police officer, collected heroin from drug smugglers at the border. App., infra, 2a. He
then called applicant and asked him to come to a grocery store parking lot so they
could talk. Ibid. When applicant arrived, he parked and rolled down his passengerside window. Ibid. Thereafter, the informant removed a cooler from his trunk and
placed it onto applicant’s passenger seat through the open window. Ibid. The
informant said: “I need you to do me a favor,” to which applicant asked: “What are
you doing?” Forty-five law enforcement officers then swarmed his car, pulled him out,
searched him, and arrested him. Ibid. Officers found nearly two kilograms of heroin
in the cooler. Ibid.
Though applicant remained in his car the whole time and never touched the
cooler, two FBI agents swore otherwise. App., infra, 3a. Agent James Moody said
applicant left his car and personally retrieved the cooler from the informant’s car;
agent Erin LaBuz said the informant handed the cooler to applicant who personally
placed it in his passenger seat. After a grand-jury indictment, applicant stood trial
and was acquitted on October 31, 2013. Ibid.
2. After his acquittal, applicant brought suit under Bivens, the Federal Tort
Claims Act, 42 U.S.C. § 1983, 42 U.S.C. § 1985, and state law against various
individuals involved in the sting and his subsequent imprisonment. App., infra, 3a4a. As relevant here, the district court dismissed applicant’s claims against FBI
agents Moody and LaBuz for their evidence fabrication. Id. at 4a.
3. The court of appeals affirmed, holding in relevant part that a fabricationof-evidence claim presents a new Bivens context and that “[t]here are legion ‘special

3
factors’ counseling” against recognizing this purportedly new kind of Bivens action.
App., infra, 12a-13a. The panel majority asserted that persons injured by fabricated
evidence could sue under the Federal Tort Claims Act and that the cause of action
implicates international security concerns because it arose out of “a multijurisdictional investigation into transnational organized crime committed by a
violent gang that has wreaked havoc along our border with Mexico.” Id. at 13a.
Judge Graves dissented, observing that a federal officer’s fabrication of
evidence “is exactly the type of run-of-the-mill ‘law enforcement overreach’ claim
[Ziglar v. Abbasi, 137 S. Ct. 1843 (2017)] emphasized could still be recognized under
Bivens.” App., infra, 16a (Graves, J., dissenting).
4. The petition for certiorari will demonstrate that review is warranted on at
least the following question: whether Bivens authorizes a cause of action to remedy
federal officers’ fabrication of evidence.
This question has produced a circuit conflict in the two years since this Court’s
decision in Ziglar v. Abbasi, 137 S. Ct. 1843 (2017).
Following Ziglar, both the Sixth and Ninth Circuits have approved Bivens
actions to remedy federal officials’ evidence fabrication. In Jacobs v. Alam, the Sixth
Circuit reexamined its longstanding precedent providing a Bivens action arising out
of fabrication of evidence, holding that Ziglar did not change the action’s availability.
915 F.3d 1028, 1035-1039 (6th Cir. 2019). In Lanuza v. Love, the Ninth Circuit held
that a Bivens action was available to an immigrant where a federal immigration
prosecutor falsified an affidavit to deprive the immigrant of his right to seek lawful

4
permanent residence. 899 F.3d 1019, 1022-1023 (9th Cir. 2018). Ultimately, the
Ninth Circuit authorized a Bivens remedy “where a government immigration
attorney intentionally submitted a forged document in an immigration proceeding to
completely bar an individual from pursuing relief to which he was entitled.” Id. at
1034.
5. Good cause exists for an extension of time to prepare a petition for a writ of
certiorari in this case. Undersigned counsel of record was retained only recently and
has not yet had an opportunity to familiarize himself with the full record and issues
involved. Undersigned counsel also has several other matters with proximate due
dates, including a reply brief in support of a motion for summary judgment due on
January 3, 2020, in Washington Alliance of Technology Workers v. U.S. Department
of Homeland Security, No. 16-cv-1170 (D.D.C.); a reply brief due on January 3, 2020,
in Martinez v. LaRose, No. 19-3908 (6th Cir.); a merits brief due on January 8, 2020,
in State of Illinois ex rel. Leibowitz v. Family Vision Care, No. 124754 (Ill.); and a
merits reply brief due on February 14, 2020, in Nasrallah v. Barr, No. 18-1432.
For the foregoing reasons, the application for a 29-day extension of time, to and
including February 14, 2020, within which to file a petition for a writ of certiorari in
this case should be granted.

5
December 30, 2019

Respectfully submitted.

____________________________
PAUL W. HUGHES
Counsel of Record
McDermott Will & Emery LLP
500 North Capitol Street NW
Washington, DC 20001
(202) 756-8000
phughes@mwe.com

